                          Office of Inspector General
                          Legal Services Corporation




Inspector General
Jeffrey E. Schanz

3333 K Street, NW, 3ed Floor
Washingto n, DC 20007·3558
202.295.1660 (p) 202.337.66 16 (f)
www.oig.lsc,gov

          September 30, 2013



         Mr. Steven Dickinson
         Executive Director
         Central Virginia Legal Aid Society, Inc.
         101 West Broad Street, Suite 101
         P.O. Box 12206
         Richmond, VA 23241

         Dear Mr. Dickinson :

         Enclosed is the Office of Inspector General' s (OIG) final report of our audit on Selected Internal Controls
         at Central Virginia Legal Aid Society, Inc. (CVLAS). The OIG has reviewed your comments on the draft
         report findings and recommendations and has determined that the actions CVLAS has planned are
         responsive to the recommendations. All 18 recommendations will remain open until the OIG has been
         notified in writing that the new Accounting Manual has been approved by the Board of Directors and all
         meetings and training to discuss adherence with accounting policies and procedures has been
         completed with CVLAS staff. The OIG is referring $909.42 in questioned costs to LSC Management for
         their determination. These costs involved expenditures of LSC funds that were identified as
         unallowable, unsupported, or not approved .

         The full text of your comments is included in the report as Appendix II.

         We thank you and your staff for your cooperation and assistance .

         S~cerely,

         \\Jl2~               }\I

        4~:n~                       .
         Inspector General

        Enclosure

        cc:         Legal Services Corporation
                    Jim Sandman, President

                    Lynn Jennings, Vice President
                     for Grants Management
     LEGAL SERVICES CORPORATION

     OFFICE OF INSPECTOR GENERAL




FINAL REPORT ON SELECTED INTERNAL
            CONTROLS


CENTRAL VIRGINIA LEGAL AID SOCIETY, INC.

               RNO 447030




            Report No. AU 13-07

              September 2013

              www.oig .lsc.gov
                                                  TABLE OF CONTENTS

INTRODUCTION .... ... .......... .......... .... ...... .. .......... .. .. ... .. .. .... ............. .......... 1

BACKGROUND ...... .. ....... ... ..... .. ... ....... .... .. ..... ...... .... .. .. ........................ ... ... 1

OBJECTIVE. .. .. ......... ...... ..... .... ..... ........ .... .. ... .... ... ............. .... ............ ... ......2

OVERALL EVALUATION .... ... .. ......... ...... .. .... ..... ....... ............ .... .. ...... ....... .. 2

AUDIT FINDINGS ... ............ .. .. .. ..... ..... .. ..... .. ... .. ..... .. .. ... ... ........ .... ....... .. .. ....3

     Written Policies and Procedures ..... .. ... ......... .... ... .... .... ..... .. ...... .... .. ......3
        Recommendation 1 ... ..... .... .. ..... ........ .. ..... .. .. .. .. ....... .. ..... ... ...... .. ...... .4
        Recommendation 2 ... ....... ........ ... ... .............. .. ......... ............... ..... .... .4
        Recommendation 3 ... ...... ... .. ...... .. .... .. ... ... ...... ... ..... ... ... ........ .. ......... .4
        Recommendation 4 ..... ... .... .......... ........ ..... .. .. .. .. ... ... ..... ... ... .. ........ ... .4

     Credit Card Use .. ........ ............ ....... ....... .. ....... .................. .. .. ... .......... ... .4
        Recommendation 5 .... ... ... .. ... .. .......................... ... ........ ........... .. .. .... .5

     Derivative Income ........ ... ........ ....... .. ..... ................ ...... .... ... .... .. .. .... .... .... 5
        Recommendation 6 ... ... .. ...... .... ......... ... .............. .. .. ............. ..... .. ...... 6
        Recommendation 7 ..................... ... ..... ....... ... ... .... ..... ... ................. ... 6

     Cost Allocation .......... .... ....... .. ...... ......... .. ..... ..... .. ..... .. ...... ........ ......... ... 6
        Recommendation 8 ......... ... ........ .. ............... .. ... ... ....... ............. .. ... .... 7
       Recommendation 9 .. .. ...... .......... .............. ...... .. ........ .... ..... ... ............ 7

     Fixed Assets ....... ... ... ............. ........ .................... ....... .... ... .......... ...... ... ..7
        Recommendation 10 ... .... .......... .... .. .............. ...... ........... .... .... ... .. ..... 8
        Recommendation 11 ... .. ... .......... .. .............. ...... ... ... .......................... 8
        Recommendation 12 ............. ............ .. .......... .. ........... ......... .. ...... ... ..8
        Recommendation 13 ... ... .... ........... ... ... ................ ... ..... .. ..... .............. 8

     Disbursements .......... ... ....... ......... ... ... .. ....... .... ... ... ... ...... .... ......... ... .. .... 8
        Recommendation 14 ... .. .... ......... ....... ... ... ......................... ... ... .. ... ... 10
        Recommendation 15 .... ......... ...... ..... .... ..... ..... .. .. ....... ... .. ............ ....10
        Recommendation 16 ....... ........ ... ... ......................... .... ... .............. ... 10
        Recommendation 17 .... ... ..... .. .. ... ......... ...... ............ ........... ... ... .. ..... 10

     Job Descriptions ..... ...... ... ......... ........ ......... ... ............... ... ..................... 10
        Recommendation 18 .. .... ......... ... ... ..... .. ..... ...... ....... .... ... ................. 10
                                       TABLE OF CONTENTS
                                         (continued)


GRANTEE MANAGEMENT COMMENTS .............. ... ...... ............. ..... .......... . 11

OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS .. .... .... .... . 11

APPENDIX 1- SCOPE AND METHODOLOGY .. ... ... .. .. .... ........... ...... ... ... .. .. 1-1

APPENDIX 11- GRANTEE MANAGEMENT COMMENTS ....... ............... ..... 11-1




                                                   ii
                                    INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at Central Virginia Legal Aid Society, Inc.
(CVLAS or grantee) related to specific grantee operations and oversight. Audit work
was conducted at the grantee's main office in Richmond , Virginia and at LSC
headquarters in Washington, DC .

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee" ... is required
to establish and maintain adequate accounting records and internal control procedures."
The Accounting Guide defines internal control as follows :

      [T]he process put in place, managed and maintained by the
      recipient's board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition;
      2. reliability of financial information and reporting; and
      3. compliance with regulations and laws that have a direct and
         material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee "must rely ...
upon its own system of internal accounting controls and procedures to address these
concerns" such as preventing defalcations and meeting the complete financial
information needs of its management.


                                    BACKGROUND

According to its webs ite, CVLAS began in 1971 with the combination of Neighborhood
Legal Aid Society and Metropolitan Richmond Legal Aid Society. CVLAS houses the
Virginia Farm Workers Legal Assistance Project in Charlottesville. As stated on its
website, CVLAS provides, without charge, legal representation in civil cases and
preventive community education to low income and elderly clients.

According to the audited financial statements for the grantee's fiscal year (FY) ended
December 31 , 2011 , the grantee is primarily funded through grants from LSC and the
Legal Services Corporation of Virginia (LSCV). The grantee received $1,284,522 from
LSC and $760 ,932 from the state (LSCV) . In addition , the grantee received funding in
the amount of $400 ,279 from various state, local, and private sources such as the
United Way of Greater Richmond , the City of Richmond , the Capital Area Agency on
Aging , and other private contributors .




                                            1
                                      OBJECTIVE

The overall objective was to assess the adequacy of selected internal controls in place
at the grantee as the controls related to specific grantee operations and oversight,
including program expenditures and fiscal accountability.       Specifically, the audit
evaluated selected financial and administrative areas and tested the related controls to
ensure that costs were adequately supported and allowed under the LSC Act and LSC
regulations.


                               OVERALL EVALUATION

While many of CVLAS' controls were adequately designed and properly implemented
as the controls related to specific grantee operations and oversight, some controls need
to be strengthened and formalized in writing. Internal controls over client trust funds
were adequately designed ; however, the grantee needs to place more emphasis on
establishing and documenting internal controls in many of the other areas reviewed.

The grantee's current practices involving internal management reporting and budgeting,
soliciting and awarding contracts, and controlling wireless phones were generally in
accordance with the LSC's Fundamental Criteria. However, policies and procedures in
these three areas need to be fully documented .

Grantee disbursements tested were generally adequately supported and allowable.
However, we found some issues that need management attention , such as six
disbursements we noted that were unsupported, unallowable or unapproved. Two
instances were noted where the grantee used LSC funds to buy flowers and to donate
funds in lieu of flowers to bereaved employees upon their loss of a family member. Two
instances were noted where credit card expenses did not have supporting
documentation. Two instances were noted where office supply purchases did not have
purchase orders as required by the grantee's policy.

We also noted other areas where internal controls could be strengthened. The following
areas lacked written policies and procedures and needed improvement because of
inadequate:

          •   oversight of credit cards,
          •   practices over recording of derivative income,
          •   cost allocation practices, and
          •   fixed assets policies including an inadequate physical inventory practice.

In addition, job descriptions for all accounting staff needed to be updated to reflect the
current staffing situations and job responsibilities.

Our tests confirmed that the amounts of salary advances requested by employees were
adequately approved and did not exceed the net amount of 2 weeks' pay as stipulated

                                            2
in the policies contained in the grantee's Manual of Financial Procedures. Our tests
also confirmed from accounting records that the amounts deducted towards the
repayment of the salary advances were accurate.


                                   AUDIT FINDINGS

WRITTEN POLICIES AND PROCEDURES

Operating practices for some areas reviewed were not documented in the grantee's
Manual of Financial Procedures in accordance with the Fundamental Criteria contained
in the LSC Accounting Guide. The Manual of Financial Procedures documents the
policies and procedures to be followed by CVLAS staff in meeting the objectives and
criteria of LSC and its other funding sources . Though not documented, the grantee's
current practices involving internal management reporting and budgeting , soliciting and
awarding contracts and use of wireless phones generally conformed to the
Fundamental Criteria.

Budgeting involved top management and the budget was created annually based on
funding sources and expense limitations inherent to the grants. The expenses were
projected based on prior year expenditures. Monthly income reports were prepared and
used to create quarterly budgets versus actual analyses.

CVLAS entered into contracts with vendors when appropriate. The awards were
subject to competition and the grantee entered into formal contracting agreements.

Wireless phones were accounted for through the inventory listing and were in the
custody of the Director of the Farmworker Program. The Director assigns the phones to
the attorneys doing outreach and verbally communicates the phone use policy to the
staff. The staff is informed that the phone is only for business purposes.

The Manual of Financial Procedures did not detail the policies and procedures relating
to internal management reporting and budgeting, awarding of contracts and consulting
agreements, and the use of wireless phones.

The Manual of Financial Procedures also did not include policies and procedures
relating to grantee credit card use. The grantee stated that the credit card policies were
verbally announced to the employees and that a practice was in place.

CVLAS's management stated the Executive Director was new to the position and that
the existing Manual of Financial Procedures was in place when he started. The
Executive Director stated that he realizes the Manual of Financial Procedures needs
improvement and he has begun the process of updating the manual. However, at the
time of the on-site fieldwork, the updated (draft) Manual of Financial Procedures was
not complete and had not been disseminated to the staff. The Executive Director stated
that he was waiting for the OIG report to see what other areas needed improvement


                                            3
prior to completion and presentation to the CVLAS Board of Directors (Board) for
approval.

To maintain an adequate internal control structure, each grantee must develop a written
accounting manual that describes the specific procedures to be followed by the grantee
in complying with the Fundamental Criteria contained in the LSC Accounting Guide,
which requires that financial controls be established to safeguard program resources.
Without adequate written policies and procedures in place, transactions may be initiated
and recorded that violate management intentions, or possibly laws or grant restrictions.
Written policies and procedures also serve as a method to document the design of
controls and communicate the controls to the staff.

Recommendations.       The Executive Director should develop written policies and
procedures to:

       Recommendation 1.       document the management reporting and budgeting
       process.

      Recommendation 2. document the process of soliciting and awarding contracts.

      Recommendation 3. govern the use of wireless phones.

      Recommendation 4. govern the use of credit cards.


CREDIT CARD USE

Credit card procedures described were not always followed. The grantee's practice as
described was adequate; however oversight over credit card use could be improved.

According to the grantee, when a purchasing need was identified, the individual
approached a credit card holder, who evaluated the need and appropriateness of the
transaction. The credit card holder personally made the purchase using the assigned
credit card . Credit card holders received monthly statements, reviewed transactions
under their respective accounts, and forwarded supporting documentation for
transactions to the central office for final review and payment.

However, we noted that in one branch office the credit card use practice was contrary to
what had been described . The Charlottesville branch office Director for Virginia
Farmworkers Program maintains physical possession and uses a CVLAS credit card
issued to the Senior Managing Attorney. According to the Director for Virginia
Farmworkers Program, the credit card is also used by a member of her staff (Migrant
Outreach Worker), as well as other individuals in the Charlottesville branch office.




                                           4
As noted previously, the authorized credit card holder does not always personally make
purchases. The Director for Virginia Farmworkers Program reviews transactions on the
monthly statement and forwards supporting documentation for transactions to the
central office for final review and payment. Use of the credit card by individuals not
assigned to the card could lead to improper or inappropriate transactions.

Our disbursement test disclosed that some receipts for credit purchases were missing .
The disbursement sample included seven disbursements for credit card statements
totaling $2,725.95 . From the credit card statements reviewed , two transactions totaling
$129.61 did not have receipts . The charges were for hotel ($85.09) and gas for the
rental car ($44.52). The grantee's policy requires that receipts be attached to travel
vouchers for reimbursements . The Fiscal Manager stated that the missing credit card
receipts had been misplaced by the Charlottesville branch office employee who incurred
the expenses.

Recommendation 5. The Executive Director should ensure that credit card holders
fully comply with established office policies when making credit card purchases.


DERIVATIVE INCOME

The LSC Accounting Guide, Chapter 2, paragraph 2-2.7, defines derivative income as
follows .

              . .. any additional income derived from an LSC grant, such as
              interest income, rent or the like, or that portion of any
              reimbursement or recovery of direct payments to attorneys,
              proceeds from the sale of assets, or other compensation or
              income attributable to any Corporation grant.

Our review disclosed that there were no written policies on how to account for and
allocate rental income and attorneys' fees . While rental income was being allocated
correctly, attorneys' fees allocation practices were not in compliance with LSC
regulations. Derivative income in the amount of $6,888.71 was received in attorneys'
fees by CVLAS for FY 2012. CVLAS recorded the amounts as income and coded it as
attorneys' fees . According to the grantee, the attorneys' fees were to be allocated at the
end of the year during the cost allocation process to all grantors based on percentage of
income received from each grant.

LSC Regulation 45 CFR §1609.4 (a) states:

              Attorneys' fees received by a recipient for representation
              supported in whole or in part with funds provided by the
              Corporation shall be allocated to the fund in which the
              recipient's LSC grant is recorded in the same proportion that
              the amount of Corporation funds expended bears to the total

                                             5
              amount expended        by   the    recipient   to   support   the
              representation.

According to the CVLAS Fiscal Manager, she was not aware of the LSC requirements
relating to the accounting for attorney's fees which provides that funds received shall be
allocated to the fund in the same proportion that the grant funds expended bears to the
total amount expended by the grantee to support the representation. Although the
Fiscal Manager stated that the attorneys' hours spent on the case were tracked through
the time keeping system, the hours were not used for allocating attorneys' fees .

Properly recording derivative income ensures that the LSC grant is apportioned its fair
share of income to be used for LSC eligible clients.

Recommendations. The Executive Director should:

       Recommendation 6. formalize in writing policies and procedures for recording
       and allocating derivative income.

       Recommendation 7.       ensure that CVLAS personnel fully implement the
       requirements of LSC Regulation 45 CFR § 1609.4(a) related to the recording of
       income derived from attorneys' fees .


COST ALLOCATION

The cost allocation process needs to be performed more frequently and timely. The
grantee provided us with cost allocation schedules for 2011. For 2011, the cost
allocation was performed in June and December 2011. As of the conclusion of our site
visit, March 26 2013, CVLAS had not yet performed the cost allocation for 2012
expenses.

While grantee management verbally described cost allocation procedures, documented
policies and procedures relating to cost allocation were not adequate. The written
procedures need to be revised to have sufficient details that explain how costs are
allocated between funding sources in order to conform to the LSC Accounting Guide.
Written procedures ensure proper design of controls to allow management to
demonstrate the total cost of the activity that the funding sources are financing . Written
procedures also serve as a method to communicate these controls to staff.

We reviewed entries on a spreadsheet, prepared by the Fiscal Manager, detailing the
cost allocation process. Direct expenses are allocated based on the actual time CVLAS
attorneys and paralegals report on cases. The expenses on the spreadsheet that are
coded to the general account are allocated to LSC and other grants that handle LSC
eligible cases. The allocation is by percentage of total funding . We recalculated the
cost allocation amounts for 2011 against the information provided by the grantee and
concluded that the cost allocation process as described was adequate. The grantee


                                             6
stated that the cost allocation for 2011 was done on a semi-annual basis. Performing
cost allocations only twice a year may not be sufficient to provide current financial
information to make fund use decisions or inform the Board of fu nd expenditures.

Furthermore, the cost allocation for 2012 had not yet been performed by the grantee as
of March 26, 2013. The grantee explained that they had not performed the cost
allocation for 2012 due to transitioning to a new accounting system. The grantee was
transitioning from Sage Business Works to OuickBooks and was moving existing
accounts from one system to the other. The grantee had initially stated that with
OuickBooks the plan was to begin allocating costs on a monthly basis effective
September 2012, but this had not been done at the time we concluded audit fieldwork in
March 2013. As a result, we do not know whether the cost allocation process and
procedures for 2012 are the same as they were for 2011.

Recommendations. The Executive Director should:

       Recommendation 8. update CVLAS's Manual of Financial Procedures by
       preparing written policies and procedures that document current cost allocation
       practices in use and include all processes required by the LSC Accounting
       Guide.

       Recommendation 9. ensure that the cost allocation process is performed
       frequently enough to provide meaningful financial information to grantee
       management, the Board of Directors, and funders .


FIXED ASSETS

The grantee's written policies over fixed assets need to be revised. To assist in
developing an adequate internal control structure over program assets, LSC's
Fundamental Criteria sets out specific areas that need to be addressed by each
grantee. Our review of CVLAS ' Manual of Financial Procedures disclosed that policies
and procedures were not established to adequately address conducting physical
inventories, capitalizing and depreciating assets, maintaining and repairing assets,
valuing contributed property, and monitoring donor restrictions on collections.

As a result of the lack of adequate written procedures, inventories conducted by the
grantee did not provide assurance that all assets were properly safeguarded and
vehicles owned by the grantee may not have been properly managed.

Physical Inventories

Physical inventories were not conducted by disinterested officials. Rather inventories
were essentially conducted by the employee who had custody of the asset. Employees
were provided inventory lists annually 8iId were responsible for verifying the existence
and the condition of the assets assigned to them . Employees would indicate whether


                                           7
an asset was on hand or missing, in need of repair, replaced, or moved to a different
location. The employee would then provide the list to a designated person . The
designated person was responsible for updating the Master Inventory List. However,
the results were not reconciled to the accounting records . The grantee stated that due
to the reduced funding and the size of the grantee, there is no staff available to conduct
independent physical inventory count.

Vehicle Management

The grantee owned two vehicles used by the Farm Workers Program in the
Charlottesville branch office. However, the Manual of Financial Procedures and the
Personnel Manual in place during the audit period did not contain any written policies
and procedures governing the use of these vehicles. Specific items not documented
included policies and procedures regarding authorized users, use and maintenance of
the vehicle, documenting the purpose of trip, and maintaining mileage logs by users.

Properly designing and implementing fixed assets policies and procedures help ensure
assets are adequately safeguarded against loss, theft, or misuse and financial
statements accurately reflect the value of assets on hand . In addition, documented
policies and procedures over vehicles help ensure that vehicles are only used for
authorized purposes and in compliance with Internal Revenue Service (IRS) rules and
regu lations.

Recommendations.        The Executive Director should develop written policies and
procedures:

       Recommendation 10. to control physical inventory to include reconciliation to
       accounting records.

       Recommendation 11 . to document the following areas: asset capitalization,
       depreciation, maintenance and cost repair, valuation of contributed property and
       monitoring donor restrictions on collections.

      Recommendation 12. to govern the use of CVLAS owned vehicles and to ensure
      that the use of the vehicles is in accordance with IRS rules and regulations.

Recommendation 13: The Executive Director should develop compensating inventory
procedures if grantee staff is not available to conduct a full and independent inventory.
Some compensating procedures could be to independently inventory high value and
sensitive assets or recruit volunteers to conduct the physical inventory.


DISBURSEMENTS

Except for unallowable costs , written policies and procedures were in accordance with
LSC's Fundamental Criteria. In general, most disbursements were properly approved


                                            8
and adequately documented. However, disbursement procedures were not followed in
some instances. As a result of our testing, we noted six disbursements, totaling $909,
that were unallowable, unsupported, or not approved . Ensuring costs are allowed,
maintaining adequate supporting documentation and obtaining proper approval for
disbursements helps ensure that funds are only used for authorized purposes.

LSC Regulation 45 CFR Part 1630, Costs Standards and Procedures, among other
requirements, provides that expenditures by a grantee be reasonable and necessary for
the performance of the grant or contract and adequately documented.               The
Fundamental Criteria in the Accounting Guide (chap. 3-5.4(a), pg . 33), requires that
approval be at an appropriate level of management before a commitment of resources
is made. Chapter 3-5 .7, pg. 41, of the Fundamental Criteria also states that
disbursements require adequate documentation supporting the reason for each
disbursement contained in the files . Additionally, the CVLAS Manual of Financial
Procedures, pg . 22 , requires that all office supply purchases be approved through a
purchase order.

Unallowable costs

Two instances, totaling $241.20, were noted where the grantee used LSC funds to
purchase flowers and to donate funds in lieu of flowers to bereaved employees upon
their loss of a family member. According to the Fiscal Manager, the grantee was not
aware that flower purchases were unallowable purchases.

Unsupported costs

Two instances, totaling $129.61 , were noted where credit card expenses did not have
supporting documentation . The grantee's Manual of Financial Procedures states that
there must be prior approval with supporting documentation for any expenditure
authorized by CVLAS. The LSC Accounting Guide also provides that disbursements
require documentation supporting the reason for each disbursement, which must be
contained in the files . The Fiscal Manager stated that the missing credit receipts had
been misplaced by the attorney in the Charlottesville office who incurred the expenses.

Unapproved costs

Two instances, totaling $538 .61, were noted where office supply purchases did not
have purchase orders as required by the grantee's policy. The grantee's Manual of
Financial Procedures states that a pre-numbered purchase order system is used for all
purchases (except miscellaneous purchases of less than $20.00). The Fiscal Manager
stated that the missing purchase orders were an oversight on her part. Because the six
disbursements identified are not properly supported within the meaning of 45 CFR
§1630.2, the OIG is questioning $909.42, the total value of the six disbursements. The
OIG will refer the questioned costs to LSC management for review and action .




                                          9
Recommendations. The Executive Director should ensure that:

       Recommendation 14. LSC funds are not used to purchase flowers or to donate
       funds in lieu of flowers.

       Recommendation 15. written policies and procedures are developed to prohibit
       the use of LSC funds for unallowable expenses including, but not limited to, the
       purchase of flowers , donations in lieu of flowers, holiday parties, alcohol
       purchases, late fees or finance charges. These policies should be briefed to all
       grantee staff, emphasizing that LSC's funds are to be used for business
       purposes only.

       Recommendation 16. procedures are enforced that require disbursements to be
       accompanied by supporting documentation before payment.

       Recommendation 17. all employees adhere to the policies and procedures
       regarding adequate approval for all purchases.

JOB DESCRIPTIONS

The Executive Director stated that the job descriptions of its Finance personnel were
outdated and did not reflect the current positions. He also explained that based on
budget cuts, the grantee's Board restructured two finance positions into one position.
The two finance positions restructured were the Fiscal Manager and Director of
Operations, which were replaced by a new position, Program Administrator. A job
description was provided for this new position which appeared adequate. However, no
other Finance staff's job descriptions were updated.

The Accounting Guide requires that the duties and responsibilities of all grantee
personnel be detailed in written job descriptions so that financial duties and
responsibilities are achieved. Position descriptions are an important internal control
where specific duties, reporting relationships and constraints can be clearly delineated.
Position descriptions also help provide a basis for hiring , evaluating and promoting staff.

Recommendation 18. The Executive Director should ensure that all Finance staff
members have current job descriptions that accurately reflect their responsibilities.




                                            10
          SUMMARY OF GRANTEE MANAGEMENT COMMENTS

Grantee management agreed in principle with all the findings and recommendations
contained in the report. Grantee management submitted an updated draft Accounting
Manual incorporating many of the OIG's recommendations. The Program's Board of
Directors will vote on adopting the updated manual at the next Board meeting .
Recommendations regarding enforcement of policies and procedures by Program
managers are ongoing. One recommendation regarding the development of job
descriptions is in process. A copy of Management's response is included as an
appendix to this report.


     OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS

The OIG considers management comment's responsive to the findings and
recommendations contained in the report.        The actions planned by grantee
management to revise and update the program's Accounting Manual as well as conduct
meetings and training sessions with staff should correct the issues identified in the
report. The OIG considers all 18 recommendations open until the grantee's Accounting
Manual has been approved by its Board of Directors and all meetings and training to
discuss adherence with accounting policies and procedures has been completed with
CVLAS staff.




                                         11
                                                                        APPENDIX I

                            SCOPE AND METHODOLOGY

To accomplish the audit objective, the OIG identified, reviewed, evaluated and tested
internal controls related to the following activities:

   •   Cash disbursements
   •   Contracting
   •   Credit cards
   •   Property and Equipment
   •   Internal Management Reporting and Budgeting
   •   Salary Advances, and
   •   Cost Allocation .

In addition we reviewed controls over derivative income and client trust fund accounting .
Controls over derivative income were reviewed to determine whether income was
properly recorded and allocated. Controls over client trust fund accounting were
reviewed , but not tested .

To obtain an understanding of the internal controls over the areas reviewed, grantee
policies and procedures were reviewed, including manuals, guidelines, memoranda ,
and directives, setting forth current grantee practices.      Grantee officials were
interviewed to obtain an understanding of the internal control framework, and
management and staff were interviewed as to their knowledge and understanding of the
processes in place. To review and evaluate internal controls, the grantee's internal
control system and processes were compared to the guidelines in the Fundamental
Criteria of an Accounting and Financial Reporting System (Fundamental Criteria)
contained in the LSC Accounting Guide. This review was limited in scope and was not
sufficient for expressing an opinion on the entire system of grantee internal controls
over financial operations.

We assessed the reliability of computer generated data provided by the grantee by
reviewing source documentation for the entries selected for review. We determined that
the data were sufficiently reliable for the purposes of this report.

To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, disbursements from a judgmentally selected sample of
employee and vendor files were reviewed. The sample was taken from the period
January 1, 2011 through August 30, 2012 , and represented approximately 10% of the
$936,375.14 disbursed for expenses other than payroll and consisted of 82 transactions
totaling $94,502 .27 . To assess the appropriateness of expenditures , we reviewed
invoices, vendor lists, and traced the expenditures to the general ledger. The
appropriateness of those expenditures was evaluated on the basis of the grant
agreements, applicable laws and regulations , and LSC policy guidance.

                                           I-1
To evaluate and test internal controls over the contracting process, credit card use,
internal management reporting and budgeting, and property and equipment, we
interviewed appropriate program personnel, examined related policies and procedures,
and selected specific transactions to review for adequacy,

Controls over salary advances were reviewed by examining the personnel policies and
practices, and by testing a judgmentally selected sample of employee reimbursements
as part of the disbursements testing , To assess the salary advance process, we
reviewed salary advance requests for appropriate approvals and verified that the
amounts requested did not exceed the net amount of 2 weeks' pay as stipulated in the
policies contained in the grantee's Manual of Financial Procedures, We also reviewed
accounting records showing the amount paid in advance and individual pay statements
showing the amounts deducted towards the repayment of the salary advance,

To evaluate the adequacy of the cost allocation process, we discussed the cost
allocation process for 2011 with grantee management and requested, for review, the
grantee's written cost allocation policies and procedures as required by the LSC
Accounting Guide, We recalculated the cost allocation amounts for 2011 using the
information provided by the grantee,

Controls over derivative income were reviewed by examining current grantee practices
and reviewing the written policies contained in the grantee's Manual of Financial
Procedures, To evaluate controls over client trust fund accounting, we interviewed
appropriate program personnel and examined related policies and procedures,

The on-site fieldwork was conducted from September 10 through September 14,
November 14 through November 16, 2012, and March 25 and 26 , 2013 , Our work was
conducted at the grantee's central administrative office in Richmond , Virginia and at
LSC headquarters in Washington , DC , Documents reviewed pertained to the period
January 1, 2011 through August 31,2012,

This audit was conducted in accordance with generally accepted government auditing
standards, Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives, The OIG believes that the evidence
obtained provides a reasonable basis for the findings and conclusions based on the
audit objectives,




                                         1- 2
                                                                                         APPENDIX"

                          GRANTEE MANAGEMENT COMMENTS


                                           LA W OFFICES
              CENTRAL VIRGINIA LEGAL AID SOCIETY, INC.
                                           RICHMOND OFFICE
                  101 WEST BROAD STREET, SUITE 10 1 • P.O. BOX 12206 • RICHMOND , VA 2324 1


                                               (804) 648· JO 12
                                             FAX: (804) 649·8794


                                          September 26, 2013

Ronald Merryman
Assistant Inspector General for Audit
Office of Inspector General
Legal Services Corporation
Washington, DC

Mr. Merryman:

Please accept this as CVLAS' response to the draft OIG report submitted to us on August 12 ,
2013 .

In general, we have no disagreement with the findings or recommendations of OIG and
appreciate their thorough work. We believe that implementing their recommendations will
improve the accounting systems at CVLAS and bring us into closer compliance with LSC
regulations.

Attached is a draft of our new Accounting Manual which incorporates many of the OIG teams'
recommendations. It will be submitted to the Finance committee of our board next month and
after any changes made by them, to the full board for approval in December.

A full staff meeting will also be held in December to inform staff of all the policies. The
Executive Director will take responsibility to ensure that all staff are aware of the policies and
share the ongoing duties with Office Managers, Program Managers, the bookkeeper and others to
ensure compliance.

All staff who manage financial matters, all managers and administrators are already aware of
~iG's recommendations, the OIG report and the contents of the Draft Accounting Manual.


Specifically, we took the following actions on each recommendation:


                                                   II - 1
Recommendation J. Document the management reporting and budgeting process. See changes
in attached manual on pages 14 -15.

Recommendation 2. Document the process of soliciting and awarding contracts. See changes in
manual on pages 34 and 35.

Recommendation 3. Govern the use of wireless phones . See changes in manual on page 36.

Recommendation 4. Govern the use of credit cards. See changes in manual on page 37.

Recommendation 5. The Executive Director should ensure that credit card holders fully comply
with established office policies when making credit card purchases. Ongoing

Recommendation 6. Formalize in writing policies and procedures for recording and allocating
derivative income. See changes in attached manual on page 31 .

Recommendation 7. Ensure that CVLAS personnel fully implement the requirements ofLSC
Regulation 45 CFR § 1609.4(a) related to the recording of income derived from attorneys' fees.
Ongoing

Recommendation 8. Update CVLAS's Manual of Financial Procedures by preparing written
policies and procedures that document current cost allocation practices in use and include all
processes required by the LSC Accounting Guide. See changes in manual on 31 and throughout
the document.

Recommendation 9. Ensure that the cost allocation process is performed frequently enough to
provide meaningful financial information to grantee management, the Board of Directors, and
funders . Cost allocation will be made as expenditures and income is received and then adjusted
monthly and as needed.

Recommendation 10. To control physical inventory to include reconciliation to accounting
records . See changes in manual on page 29.

Recommendation II. To document the following areas: asset capitalization, depreciation,
maintenance and cost repair, valuation of contributed property and monitoring donor restrictions
on collections. See changes in manual on page 29.

Recommendation 12. To govern the use of CVLAS owned vehicles and to ensure that the use of
the vehicles is in accordance with IRS rules and regulations. See changes in manual starting on
page 38.

Recommendation 13: The Executive Director should develop compensating inventory
procedures if grantee staff is not available to conduct a full and independent inventory. Some
compensating procedures could be to independently inventory high value and sensitive assets or
recruit volunteers to conduct the physical inventory. Under consideration.



                                              11 - 2
Recommendation 14. LSC funds are not used to purchase flowers or to donate funds in lieu of
flowers. See changes in manual on page 10.

Recommendation 15. Written policies and procedures are developed to prohibit the use ofLSC
funds for unallowable expenses including, but not limited to, the purchase of flowers, donations
in lieu of flowers, holiday parties, alcohol purchases, late fees or finance charges. These
policies should be briefed to all grantee staff, emphasizing that LSC's funds are to be used for
business purposes only. See changes in manual on page 10.

Recommendation 16. Procedures are enforced that require disbursements to be accompanied by
supporting documentation before payment. Ongoing.

Recommendation 17. All employees adhere to the policies and procedures regarding adequate
approval for all purchases. Ongoing.

Recommendation 18. The Executive Director should ensure that all Finance staff members have
current job descriptions that accurately reflect their responsibilities. See attached job description,
page 39 of manual. CVLAS is in the process of drafting job descriptions for all employees and
hopes to have that completed shortly.

Please do not hesitate to contact me if you have any questions regarding this response. A hard
copy will follow. Thank you again for the extension and opportunity to respond to the draft
report.



                                               Very truly yours,


                                               Steve Dickinson




                                                11-3
